Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




The External Review of Hospital Quality

    Holding the Reviewers Accountable




                    JUNE GIBBS BROWN
                     Inspector General

                         JULY 1999
                       OEI-01-97-00053
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

BOSTON                                                   HEADQUARTERS

Joyce M. Greenleaf, Project Leader                       Jennifer Antico, Program Specialist
Lynne G. Dugan, Senior Analyst                           Alan Levine, Program Specialist
Meredith A. Vey, Program Analyst




         To obtain copies of this report, please call the Boston Regional Office at 617/565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                         EXECUTIVE                        SUMMARY

PURPOSE

          To assess how the Health Care Financing Administration holds the Joint Commission and
          State agencies accountable for the external review of hospital quality.


BACKGROUND

External Quality Review of Hospitals in the Medicare Program

                  Hospitals routinely offer valuable services, but also are places where poor care can
          lead to unnecessary harm. The external quality review of hospitals plays an important role
          not only in protecting patients from such harm, but also in complementing the hospitals’
          own internal quality efforts. The Federal Government relies on two types of external
          review to ensure hospitals meet the minimum requirements for participating in Medicare:
          accreditation, usually by the Joint Commission on Accreditation of Healthcare
          Organizations, and Medicare certification, by State agencies. About 80 percent of the
          6,200 hospitals that participate in Medicare are accredited by the Joint Commission.

This Inquiry

                  This report, part of a series of four companion reports that resulted from our
          inquiry, focuses on the Health Care Financing Administration’s (HCFA’s) oversight of
          both the Joint Commission and State agencies. Our inquiry draws on aggregate data, file
          reviews, surveys, and observations from a rich variety of sources, including HCFA, the
          Joint Commission, State agencies, and other stakeholders.

                  We organized this report around a three-part framework that HCFA can use to
          hold accrediting bodies and State agencies accountable: (1) obtaining information on
          performance, (2) providing feedback on performance, and (3) disclosing information
          publicly.


FINDINGS

          The HCFA obtains limited information on the performance of the Joint Commission
          or the States. In both cases, HCFA asks for little in the way of routine performance
          reports. To assess the Joint Commission’s performance, HCFA relies mainly on validation


Hospital Quality: Holding the Reviewers Accountable   1                                  OEI-01-97-00053
          surveys conducted, at HCFA’s expense, by the State agencies. But for a number of
          reasons the value of these surveys has been limited. The methodology for selecting the
          hospitals to survey fails to consider hospital size or type and draws on hospitals surveyed
          only in certain months. More fundamentally, the surveys have been based on different
          standards ( the Medicare conditions of participation as opposed to the Joint Commission
          standards) and have been conducted subsequent to the Joint Commission’s survey (when
          hospital conditions could have changed). During 1996 and 97, HCFA piloted 20
          observation surveys--during which State and HCFA officials accompanied Joint
          Commission surveyors. This approach appears to have much promise, but HCFA has not
          yet issued any evaluation of the pilots.

          The HCFA rarely observes State agencies survey hospitals, and conducts no validation
          surveys of them.

          The HCFA provides limited feedback to the Joint Commission and the State
          agencies on their overall performance. Its feedback to the Joint Commission is more
          deferential than directive. It’s major vehicle for feedback to the Joint Commission is its
          annual Report to Congress, which is based on the flawed validation surveys and has
          typically been submitted years late. The HCFA is more directive to the State agencies,
          which carry out their survey work in accord with HCFA protocols, but gives them little
          feedback on how well they perform their hospital oversight work.

          Public disclosure plays only a minimal role in holding Joint Commission and State
          agencies accountable. The HCFA makes little information available to the public on the
          performance of either hospitals or of the external reviewers. By contrast, HCFA posts
          nursing home survey findings on the Internet and requires nursing homes to post them
          within the facility as well. The Joint Commission has been more proactive than HCFA in
          making hospital survey results widely available on the Internet and through other means.


CONCLUSION

                  The clear and disturbing conclusion of this report is that both the Joint
          Commission and State agencies are only minimally accountable to HCFA for their
          performance in reviewing hospitals. While we recognize that these entities are also
          accountable to others and that they must have considerable flexibility to function
          effectively, we maintain that it is vitally important for HCFA to ensure that they
          adequately fulfill their responsibilities to protect Medicare beneficiaries. How, then, can
          HCFA hold these entities accountable while minimizing burdensome oversight? How can
          it recognize their inherent strengths and limitations, and tailor performance measurement
          accordingly? We address these and other related questions in our summary report, A Call
          for Greater Accountability. That report also contains our recommendations, which we
          direct to HCFA.

Hospital Quality: Holding the Reviewers Accountable   2                                   OEI-01-97-00053
COMMENTS

                   Within the Department of Health and Human Services, we received comments
          from HCFA. We also solicited and received comments from the following external
          parties: Joint Commission on Accreditation of Healthcare Organizations, Association of
          Health Facility Survey Agencies, American Osteopathic Association, American
          Association of Retired Persons, Service Employees International Union, National Health
          Law Program, and Public Citizen’s Health Research Group. We include the detailed text
          of all of these comments and our responses to them in our summary report, The External
          Review of Hospital Quality: A Call for Greater Accountability (OEI-01-97-00050).




Hospital Quality: Holding the Reviewers Accountable   3                              OEI-01-97-00053
                             TABLE OF CONTENTS

                                                                                                                                 PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FRAMEWORK FOR ACCOUNTABILITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


FINDINGS:

          Obtaining Information on the Joint Commission’s Performance . . . . . . . . . . . . . . . . . . . 9

          Providing Feedback to the Joint Commission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          Disclosing Information on Joint Commission Performance . . . . . . . . . . . . . . . . . . . . . . 14

          Obtaining Information on State Agencies’ Performance . . . . . . . . . . . . . . . . . . . . . . . . 15

          Providing Feedback to State Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

          Disclosing Information on State Agencies’ Performance . . . . . . . . . . . . . . . . . . . . . . . . 18


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDICES

          A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      21

          B: HCFA’s Reinvention Project . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               23

          C: SAQIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    25

          D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   27





Hospital Quality: Holding the Reviewers Accountable                 4                                                    OEI-01-97-00053
                                      INTRODUCTION

PURPOSE

               To assess how the Health Care Financing Administration holds the Joint

          Commission and State agencies accountable for the external review of hospital quality.


BACKGROUND

Hospital Safety

                   Hospitals are an integral part of our healthcare system, offering services that
          improve, extend, and even save lives. But they are also places where inappropriate care
          can lead to unnecessary harm. This reality was clearly underscored in 1991, when a
          Harvard medical practice revealed the results of its review of about 30,000 randomly
          selected records of patients hospitalized in New York during 1984. The study found that
          1 percent of the hospitalizations involved adverse events caused by negligence.1 On the
          basis of its sample, the study team estimated that during that year, negligent care provided
          in New York State hospitals was responsible for 27,179 injuries, including 6,895 deaths
          and 877 instances of “permanent and total disability.” Many other more recent studies
          have reinforced the concerns raised by the Harvard study. Of particular note was one that
          focused on the care received by 1,047 hospitalized patients in a large teaching hospital
          affiliated with a medical school. It found that 17.7 percent of these patients received
          inappropriate care resulting in a serious adverse event--ranging from temporary disability
          to death.2 In the public eye, these scholarly inquiries have been overshadowed by media
          reports that describe, often in graphic detail, the harm done to patients because of poor
          hospital care.3

                  Hospitals rely upon a variety of internal mechanisms, from physician credentialing,
          to peer review and benchmarking, in order to try to avoid such incidents and to improve
          the quality of care provided in their facilities. External quality review serves as a vital
          additional safeguard. It provides a more detached, independent mechanism for assessing
          the adequacy of hospital practices. Such oversight is of fundamental importance to
          patients and to the public and private entities that purchase health care services on their
          behalf. Protecting patient safety and improving the quality of patient care must be a top
          priority of external review.

Medicare’s Interest in External Hospital Quality Review

                The Medicare program covers about 38 million elderly and disabled individuals,
          many of whom are high users of hospital care.4 In 1997, Medicare spent about $136

Hospital Quality: Holding the Reviewers Accountable   5                                  OEI-01-97-00053
          billion on Part A, the hospital insurance benefit.5 This figure is just over half the total
          amount the Federal government spent on all Medicare benefits.6 In the same year,
          Medicare spent over $80 billion for inpatient acute hospital care alone.7

                  Since Medicare’s inception, external quality review has been a part of the
          Medicare program. When Congress enacted the Medicare Act in 1965, it required
          hospitals to meet certain minimum health and safety requirements to participate in the
          program.8 Those minimum requirements, called the Medicare conditions of participation,
          were published in 1966, revised in 1986, and are now being revised again (see appendix
          A).9

The Joint Commission and State Agencies as External Reviewers

                  The Federal Government relies on two processes of external review to determine
          hospital compliance with these conditions of participation: accreditation, usually by the
          Joint Commission on Accreditation of Healthcare Organizations (Joint Commission), and
          Medicare certification, by State survey and certification agencies.10 Both processes
          involve a team of trained surveyors visiting a hospital, interviewing staff, reviewing
          documents, and inspecting the facility.11 However, the nature of these processes is very
          different.

                  Accreditation is a voluntary “conformity-assessment process” whereby industry
          experts define what standards organizations must conform to in order to be accredited and
          then surveyors systematically assess the organization’s performance against those
          standards.12 It is a form of self-regulation for which hospitals pay a fee.13 The Joint
          Commission enjoys a special status because, by Federal statute, hospitals accredited by the
          Joint Commission are deemed to meet the Medicare conditions of participation.14 As the
          largest accreditor of hospitals, accrediting about 80 percent of the nation’s 6,200
          hospitals, the Joint Commission is responsible for the majority of the nation’s external
          quality review of hospitals. In 1972, Congress enacted amendments that gave the Health
          Care Financing Administration (HCFA) responsibility for overseeing the Joint
          Commission.15

                  The Medicare certification process, on the other hand, is a public regulatory
          process that aims to ensure hospitals wishing to serve Medicare beneficiaries, but not
          wishing to be accredited, meet the conditions of participation. The HCFA relies on the 51
          State survey and certification agencies (hereafter called State agencies) to determine
          compliance with the Medicare conditions of participation. Hospitals pay no fee for this
          process. States agencies currently certify 1,442 nonaccredited hospitals nationwide.16
          These State agencies are paid and trained by HCFA and use HCFA’s survey instrument to
          survey nonaccredited hospitals.




Hospital Quality: Holding the Reviewers Accountable   6                                      OEI-01-97-00053
This Inquiry and Report

                 This report describes how HCFA holds the Joint Commission and the State
          agencies accountable for the external review of hospital quality. Toward that end, on the
          following page we offer a framework for considering how external reviewers can be held
          accountable. We offer our findings in accord with this framework.

                  This report is one of four companion reports that resulted from our inquiry.
          Another report, The Role of Accreditation (OEI-01-97-00051), examines the
          contributions of accreditation in external hospital review. A third, The Role of Medicare
          Certification (OEI-01-97-00052), describes the extent and nature of HCFA and State
          agencies’ external review of nonaccredited hospitals. The fourth report, A Call for
          Greater Accountability (OEI-01-97-00050), provides a summary of external review of
          hospital quality and presents the recommendations emerging from our inquiry.

                  Our inquiry draws on a variety of sources. These include: data from HCFA’s
          Online Survey Certification and Reporting System; aggregate data from the Joint
          Commission concerning hospital survey activity; a mail survey to State agencies in the 50
          States and District of Columbia (hereafter referred to as a State); observations of 7
          hospital surveys conducted by the Joint Commission and one conducted by a State agency;
          observation of two complaint investigations by State agencies; reviews of accreditation
          manuals, policies, and hospital survey files from the Joint Commission; the systematic
          gathering of information from representatives of HCFA central and regional offices, State
          agencies, the Joint Commission, American Hospital Association, consumer groups,
          professional associations, and representatives of other organizations we considered to be
          stakeholders in hospital oversight; and reviews of laws and regulations and articles from
          newspapers, journals, newsletters, and magazines. We also interviewed officials from the
          American Osteopathic Association and reviewed their accreditation materials. The
          American Osteopathic Association accredits about 100 to 150 hospitals, some of which
          are also accredited by the Joint Commission. For purposes of this inquiry, however, we
          focused on the Joint Commission. See appendix B for more details on our methodology.

                 We conducted this inspection in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Hospital Quality: Holding the Reviewers Accountable   7                                  OEI-01-97-00053
         ACCOUNTABILITY FRAMEWORK

                   The following is a generic framework for considering the mechanisms that HCFA can use
          to hold accrediting bodies and State agencies accountable. We base the framework on existing
          mechanisms. The framework serves as a starting place for discussions, to which mechanisms can
          be added or deleted. We present it in the context of hospitals, but it can also be considered in the
          context of other provider types. We apply it to the Joint Commission and State agencies on the
          following pages.

                                   Obtaining Information on Performance

          1. Validation Surveys. These are onsite reviews of hospitals that are conducted some time after
          the accreditors’ or State agencies’ own visits. Validation surveys aim to ensure that reviewed
          hospitals meet certain minimums.

          2. Observation Surveys. These are onsite reviews conducted at the same time as the accreditors’
          or State agencies’ surveys. Their intent is to directly observe the surveyors and to use those
          observations as the basis for constructive feedback.

          3. Performance Reports. Such reports involve the regular sharing of data and analysis to enable
          HCFA to remain well-informed of the hospital review activities.

          4. Policy and Procedural Updates. These are regular notices to HCFA on the key policies and
          procedures governing the bodies’ reviews of hospitals.

                                    Providing Feedback on Performance

          1. Performance Assessments. These represent HCFA’s feedback to the accreditors and state
          agencies on how well they are performing. They can be regularly scheduled or on an as-needed
          basis.

          2. Policy and Procedural Guidance. Through such guidance, HCFA can convey to the bodies
          those approaches and priorities that it regards to be of national significance.

                                        Disclosing Information Publicly

          1. Performance of Hospitals. Publicly disclosing information on hospitals conveys not only
          something about the hospitals’ performance but also assurance that a process exists for overseeing
          hospitals that wish to serve Medicare beneficiaries. Such disclosure fosters a trust that the public’s
          safety is paramount.

          2. Performance of Accrediting Bodies/State Agencies. By publicly disclosing information on
          these entities, HCFA conveys that it is monitoring the work they do on its behalf. It fosters trust
          that HCFA is promoting public safety.

Hospital Quality: Holding the Reviewers Accountable     8                                         OEI-01-97-00053
      Joint Commission Accountability

The HCFA obtains little information on Joint Commission
performance.
Validation Surveys: These surveys are fundamentally limited as tool of
accountability because they are based on different standards that are applied at
different points in time. They are also costly to implement and based on a
sample that not only is flawed, but also has been shrinking over time.

                  The validation survey process is the centerpiece of HCFA’s approach to holding
          the Joint Commission accountable.17 Yet its value is limited. It seeks to measure the Joint
          Commission’s performance through hospitals’ compliance with the Medicare conditions of
          participation, not the Joint Commission’s own standards.18 This difference in reference
          points not only complicates the interpretation of validation surveys, but also inherently
          compromises their value. Any reasonable tool of oversight needs a common frame of
          reference.19 The validation survey now must bridge the Joint Commission’s several
          hundred standards, which are categorized into 45 groups, with the few dozen Medicare
          conditions. Moreover, Joint Commission standards--considered by many even within
          HCFA to be state-of-the-art--are constantly evolving, whereas the Medicare conditions
          rarely change: first published in 1966, revised substantially in 1986, and under revision
          again now.20

                  Further undermining the validation process as a tool for accountability is its
          retrospective nature: validation surveys occur within 60 days of the Joint Commission’s
          routine hospital survey.21 During that elapsed time, hospitals have likely corrected some
          problems and experienced new ones, undergone staff changes, expanded or eliminated
          services--in other words, any number of changes could affect the validation survey results.


                  Validation surveys are labor-intensive. A team of at least two surveyors conducts
          a full hospital survey, lasting 2 to 5 days, depending on the size of the hospital. Alone, the
          survey portion of the validation probably costs upwards of $2 million per year.22 Beyond
          that, though, are costs associated with the preparation and analysis. For example, HCFA
          staff choose the sample for validation, collect and compare the accreditation and validation
          survey results, and analyze them. Considering the basic limitations identified above,
          devoting these resources to validation surveys is questionable.

                  Other concerns about HCFA’s approach to validation stem from how it selects
          hospitals for validation surveys. For example, until recently, HCFA selected hospitals for


Hospital Quality: Holding the Reviewers Accountable   9                                    OEI-01-97-00053
          validation surveys only from those having undergone Joint Commission accreditation
          surveys between January and July of each year. The HCFA reports that in January 1998 it
          began drawing a random sample of accredited hospitals each month to correct this
          problem. While an improvement, HCFA’s approach to sampling still fails to consider
          hospital characteristics such as past performance, bedsize or rural or urban location.

                  Other problems with the validation sample appear to be improving. For example,
          although the size of the sample for validation fell over the past few years, it appears to be
          on the rise. Between 1991 and 1997, the size of the validation sample fell 50 percent,
          from 227 surveys in 1991 to 113 surveys in 1997 (about 2 percent of all accredited
          hospitals). In 1998, HCFA reports that it conducted 164 validation surveys, an increase of
          31 percent over the previous year. Still, some hospitals selected for validation never get
          validated, although that also appears to be improving. In 1996, for example, HCFA
          validated no hospitals in 16 States, including Missouri, Iowa, Nebraska, and Kansas--an
          area comprising an entire Federal region of the country. Likewise, in 1997, HCFA
          validated none of the 30 selected hospitals in New Mexico, Texas, Oklahoma, Arkansas,
          and Louisiana--another Federal region. In 1998, however, HCFA reports that each
          Federal region had at least one validation survey conducted in it and 76 percent of the
          hospitals selected for validation did, in fact, have a validation survey.

Observation Surveys: The HCFA has piloted an observation survey that has
promise but remains largely undeveloped.

                  The HCFA developed an observation survey process as part of a larger initiative to
          reinvent its oversight of accreditation (HCFA generally refers to these surveys as
          reinvention surveys, see appendix B for more information on the reinvention initiative).
          The process developed called for State and HCFA surveyors to silently follow and observe
          while Joint Commission surveyors conduct accreditation surveys--a major shift from
          traditional validation surveys. In developing the observation surveys, HCFA aimed to
          address the fundamental problems with the traditional validation (such as different
          reference points and time frames). A workgroup involving officials from HCFA, State
          agencies, and the Joint Commission devoted considerable effort to defining an observation
          process as a tool for accountability. The observation survey represented an opportunity
          for State and HCFA surveyors to assess first-hand the process of an accreditation survey.
          It promised to provide what the traditional validation could not: the same snapshot of a
          hospital and insights into accreditation surveyor skills and processes (defined as survey
          preparation, survey process, interpersonal, presentation, and teamwork).23

                  In 1996 and 1997 HCFA and State agency surveyors tested their newly developed
          observation survey process by observing 20 accreditation surveys across 4 States. But
          HCFA has yet to report on the results. Indeed, its plans for revising or expanding the
          observation surveys are undeveloped. Using skilled Medicare surveyors to be what
          essentially amounts to silent observers of an accreditation survey process is a questionable


Hospital Quality: Holding the Reviewers Accountable   10                                  OEI-01-97-00053
          use of scarce resources. Furthermore, we observed neither much interaction with, nor any
          feedback to, accreditation surveyors on the one survey observation in which we
          participated. In fact, because HCFA has yet to produce an evaluation on the pilot, it has
          yet to result in feedback to the Joint Commission.

Performance Reports: The HCFA obtains few reports addressing Joint
Commission performance.

                  The HCFA asks for little regular reporting from the Joint Commission beyond the
          survey scheduling and results it needs to carry out its validation surveys. For example, it
          asks for no regular reports from the Joint Commission on topics such as the nature or
          pattern of complaints received about accredited hospitals, appeals of accreditation
          decisions, or the extent and nature of actions taken as a follow-up to surveys. It also asks
          for no aggregate data on the timeliness of surveys or training of surveyors. Nor does it
          ask for any regular reports on how many special surveys (for example in response to
          unexpected deaths or preventable injuries) the Joint Commission conducts. These types of
          data are already being collected by the Joint Commission and could provide HCFA with
          insights into how well accredited hospitals are performing, what new problem areas are
          emerging, and how well the accreditation results are being received.24

                  Regular reporting from the Joint Commission to HCFA has been largely limited to
          information HCFA needs to carry out its validation surveys. For example, the Joint
          Commission provides HCFA’s central office with lists of upcoming surveys, accredited
          hospitals and their accreditation status, and individual hospital performance reports. The
          HCFA has also received data on Joint Commission standards commonly found out of
          compliance and a report on hospital withdrawals from accreditation, mergers, and
          acquisitions.

Policy Updates: The HCFA receives regular updates on Joint Commission
policies and procedures.

                  The Joint Commission communicates with HCFA regularly and through several
          avenues. For example, officials from HCFA meet several times a year with
          representatives of the Joint Commission. Their meetings cover an array of topics,
          including the reinvented survey process, electronic exchange of data, and changes in
          the accreditation survey process, among others. In the course of developing and
          implementing the observation survey pilot, HCFA and Joint Commission officials met
          regularly and HCFA staff even attended Joint Commission surveyor training. Staff
          from the Joint Commission communicate regularly to clarify policy and procedural
          issues, either in person, in writing, on the telephone, or, more recently, via electronic
          mail. And at least two HCFA officials serve as members of Joint Commission
          committees, which provides additional opportunities for HCFA to remain well-



Hospital Quality: Holding the Reviewers Accountable   11                                 OEI-01-97-00053
          informed of existing and emerging policies.25 The communication involves largely the
          HCFA central rather than regional office staff.



The HCFA provides minimal feedback to the Joint
Commission.
Performance Assessments: The main vehicle for feedback on the Joint
Commission’s performance is the Report to Congress. That report is of limited
value.

                  The Congressional mandate that requires HCFA to publish a summary of the
          validation reports as part of its Medicare Annual Report to Congress shapes both the
          method and content of HCFA’s feedback to the Joint Commission.26 The HCFA uses this
          report to provide feedback about the validation surveys to the Joint Commission. It uses
          no other formal mechanism for feedback. Thus, outside of validation survey results, the
          Joint Commission receives little in the way of detailed, operational feedback or
          recommendations for improvement.

                  We have already raised questions about the basic value of the validation surveys.
          Beyond that, by the time HCFA releases its Annual Reports, the validation data are dated,
          further limiting their value. For example, in 1993 HCFA released the reports to Congress
          for the Fiscal Years 1989 and 1990. It published the results of the 1991 and 1992
          validation surveys in the 1992 Report, released in September 1994. The 1994 validation
          survey results never left the Department, and HCFA released the most recent reports,
          containing the 1995 and 1996 validation results, in late 1997. Given these delays, the
          Joint Commission’s standards and procedures could have changed between the time the
          validation surveys were conducted and the time the Joint Commission receives its copy of
          the Medicare Annual Report.

                  The delays of HCFA’s validation feedback impede meaningful discussion with the
          Joint Commission about the findings. While HCFA does not provide the Joint
          Commission with an opportunity to formally respond to the validation findings, some such
          discussion has occurred. For example, in response to the results of the 1991 and 1992
          validation findings, which raised concerns about the Joint Commission’s attention to life
          safety codes, HCFA observed the Joint Commission’s surveyor training and consulted
          with the it about interpreting life safety code standards.27




Hospital Quality: Holding the Reviewers Accountable   12                               OEI-01-97-00053
Policy and Procedural Guidance: The HCFA’s guidance to the Joint Commission
on policy and procedural matters is negligible.

                  The HCFA’s posture toward the Joint Commission is more deferential than
          directive. The Joint Commission, which has dominated the hospital accreditation market
          for the past 30 years, has amassed expertise that HCFA relies upon. Indeed, many
          officials in HCFA refer to the Joint Commission as maintaining the “gold standard” or
          higher bar toward which HCFA can aspire. The HCFA even modeled the recently
          proposed hospital Conditions of Participation after Joint Commission’s Agenda for
          Change.28

                   On occasion, representatives of both HCFA and the Joint Commission will be on-
          site at the same hospital at the same time. This is especially apt to occur following an
          incident of patient harm in an accredited hospital, to which both parties are responding.
          According to HCFA regional officials with whom we spoke, the HCFA takes on no
          coordinating nor information-sharing roles during those responses. In fact, during one
          high profile case of a preventable death in a hospital, the HCFA regional office staff
          reported that they played a significant role in coordinating the responses of HCFA and
          State officials, but not the Joint Commission. A HCFA official from another region
          captured this hands-off approach when he said “[We] wouldn’t want to interfere with their
          process.”

                  While the HCFA lacks a seat on the Joint Commission’s Board of Commissioners,
          it does have opportunities to provide policy and procedural guidance through its
          participation in two Joint Commission committees.29 In the Professional and Technical
          Advisory Committee for hospital standards, HCFA staff can weigh in as new standards are
          discussed and developed. Likewise, HCFA can weigh in on discussions of performance
          measurement by participating in the Council on Performance Measurement. However, the
          expectations of Committee membership, as defined by the Joint Commission, call for
          participants to not only provide advice, but also “to serve as [an] external advocate[s]” for
          the accreditation program.30 Such expectations could run counter to HCFA’s role in
          holding the Joint Commission accountable.

                   Other factors also play some role in limiting HCFA’s ability to provide meaningful
          policy or procedural guidance to the Joint Commission. For example, within HCFA itself,
          no center of responsibility exists for hospital-related issues. Rather, responsibility for
          issues related to hospitals is divided among several divisions and groups in the Center for
          Medicaid and State Operations, the Center for Health Plans and Providers, and the Office
          of Clinical Standards and Quality. The HCFA’s organizational changes in the last few
          years have left many HCFA staff and managers with steep learning curves with respect to
          hospital quality review. Indeed, many HCFA officials with whom we spoke characterized
          their interactions with the Joint Commission as more educational than evaluative.



Hospital Quality: Holding the Reviewers Accountable   13                                  OEI-01-97-00053
The Joint Commission and especially HCFA make limited
use of public disclosure as a tool of accountability.
Performance of Hospitals: The Joint Commission makes basic information on
accredited hospitals’ survey results public, but keeps most information about
adverse events confidential.

                  In December 1994, the Joint Commission began releasing accreditation
          information about hospitals, on request, in the form of performance reports.31 These
          reports include the hospital’s overall survey score from its most recent triennial survey, the
          hospital’s scores in the 45 areas surveyed, comparative data on the percentage of hospitals
          receiving each possible score in the 45 areas, and a list of the areas in having specific
          recommendations for improvement, including the status of the improvement.32 The
          reports exclude any details on the problems identified during the surveys. But the reports
          do come with a guide for interpreting and understanding the scores and an explanation of
          the 45 performance areas.

                  As of late 1998, the Joint Commission had 13,408 performance reports for
          hospitals, nursing homes, and other provider types available to the public, and that list
          keeps growing. Between late 1996 and early 1997, requests for performance reports grew
          from 13 per quarter to over 2,000. These reports are free and readily available by mail,
          phone, or through the Internet.33

                  However, the Joint Commission keeps most information on adverse events in
          hospitals confidential. In April 1998, it implemented a policy fostering hospitals to self-
          report such events and conduct their own analysis of the cause of the events.34 By keeping
          the information confidential, the Joint Commission aims to provide hospitals with a safe
          venue for reporting adverse events, thereby allowing it to develop a database for
          researching and preventing such events.

Performance of Accrediting Bodies: The HCFA has little to disclose on the
performance of the Joint Commission, but does make its Report to Congress
available on request.

                  The HCFA does not mandate that information on the performance of the Joint
          Commission be disclosed. In fact, it has little to disclose. It does have the Report to
          Congress, its main vehicle for providing feedback to the Joint Commission. That report is
          available to anyone who requests it, but, as we have seen, it is of limited value.
          Independent of HCFA, the Joint Commission makes some information about its own
          performance public through its newsletter, website, and occasional articles in magazines.35




Hospital Quality: Holding the Reviewers Accountable   14                                   OEI-01-97-00053
               State Agency Accountability

The HCFA obtains little information on State agencies’
performance.
Validation Surveys: The HCFA does not conduct such surveys of State agencies’
hospital activities.

                  None of the 10 HCFA regional offices reported conducting validation surveys of
          nonaccredited hospitals over the past few years. Based on our accountability framework
          presented on page 7, by validation survey we mean an onsite survey, conducted sometime
          after a State agency survey, that aims to verify that the hospital meets certain minimums.
          The HCFA’s workload, like that of State agencies, is dominated by nursing homes and
          home health agencies rather than hospitals. And while HCFA may validate those surveys,
          it has not validated hospital certification surveys in recent years.

Observation Surveys: The HCFA rarely conducts such surveys of State agencies’
hospital activities.

                  As we have seen, the bulk of State agencies’ work is directed toward nursing
          homes and home health agencies rather than hospitals, and HCFA’s oversight of the
          agencies reflects this. State agencies conduct relatively few surveys of nonaccredited
          hospitals each year, thereby limiting the opportunities for HCFA to observe their survey
          process.36 Indeed, 4 of the 10 HCFA regional offices reported conducting no onsite
          monitoring at all over the past year or so. The other 6 regional offices reported observing
          15-20 State agency surveys of hospitals over the past 3 years. This represents about 2
          percent of all nonaccredited hospitals, or less than 1 percent per year. The six regions that
          did observe State agency survey hospitals reporting using different approaches in their
          observation. For example, some regional offices may provide feedback to the State
          surveyors while observing, others may wait until after the survey is complete.

Performance Reports: Nationally, HCFA obtains little information on State
agencies’ performance concerning hospitals.

                  In 1996, HCFA established the State Agency Quality Improvement Plan (SAQIP)
          to promote ongoing improvement in all aspects of survey and certification, including
          hospitals.37 Toward that end, HCFA developed a set of core performance standards for
          agencies (see appendix C for standards). For the most part, the standards developed by
          HCFA apply generally to all provider types rather than being specific to hospitals. For
          example, “All surveys are conducted by qualified individuals,” applies across provider


Hospital Quality: Holding the Reviewers Accountable   15                                  OEI-01-97-00053
          types, including nursing homes and home health agencies. In fact, when we asked States
          about their improvement plans, only six identified goals specific to hospitals, such as
          improving the review of complaints related to hospital dumping.38

                  Under SAQIP, HCFA requires States to design a plan for quality improvement
          specific to the performance standard. The HCFA regional offices assist the State agencies
          and receive copies of the quality improvement plans, thus they have a general picture of
          the State agencies’ progress. Centrally, HCFA relies on its mid- and year-end SAQIP
          reports for a picture of the States’ performance.39

                  This approach, however, provides HCFA with a superficial and somewhat blurred
          picture of States’ performance in overseeing hospitals. For example, the 1997 year-end
          SAQIP report indicated State agencies had taken on general improvement projects ranging
          from training programs for documenting deficiencies to better tracking systems for survey
          data.40 But the report also highlights such vague examples of improvement as “initial
          success was opening communication,” “review done, goal met,” and “State intends to use
          SAQIP in its licensure program.”41 The HCFA grouped these and other examples into
          such categories as “enthusiasm,” “positive feedback received,” and “improved
          communication.” Overall, such examples provide little in the way of meaningful insights
          into a States’ performance.

                  While SAQIP provides a standard means for State agencies to approach quality
          improvement, it fails to provide either a means of comparing the performance across
          States or insights specific to hospitals. To some extent, HCFA can rely on other means
          for these. For example, it logs all hospital anti-dumping complaints received and
          investigated by the States. It also maintains a database of State agencies’ survey activities
          and findings. The States input data reflecting their survey work into the database, which
          HCFA then can access and aggregate. The HCFA can glean the extent of survey activity
          and trends in hospitals choosing or dropping accreditation, complaints, and survey
          findings, among others. Staff in the HCFA regional offices reported relying on such data
          occasionally, but the data have limits. For example, HCFA maintains logs of patient
          dumping that list complaints chronologically, but lack summary data and analysis of
          trends. Also, HCFA cannot determine trends in hospital termination notices. In other
          words, HCFA does not know how many times it issued hospital termination notices based
          on findings during Medicare certification surveys of nonaccredited hospitals.42 It does
          know, however, how many hospitals are actually terminated.

Policy and Procedural Updates: The HCFA determines the policies and
procedures used by the States.

                  The HCFA provides State agencies with the survey protocols and interpretive
          guidelines they need to survey hospitals. Its relationship with State agencies is akin to a
          contractual relationship, with HCFA’s expectations spelled out in an agreement renewed


Hospital Quality: Holding the Reviewers Accountable   16                                  OEI-01-97-00053
          annually.43 It ranks their activities by priority in the annual budgeting process.44 Some
          regional offices hold regular conference calls with their States to pass along updates,
          others hold regional conferences. The HCFA regional offices provide technical assistance
          to State agencies as needed, and generally have close working relationships with them.
          The HCFA also regularly provides training for State agency staff. The training agenda
          reflects statutory, regulatory, and procedural changes as well as the workload of the
          States, which means long-term care dominates the training agenda. For example, among
          about 20 courses, HCFA offered 1 that was specific to hospitals in Fiscal Year 1997. In
          Fiscal Year 1998, 3 of 25 courses HCFA offered were specific to hospitals.



The HCFA provides limited feedback to State agencies.
Performance Assessments: The HCFA largely relies on the State agencies to
conduct their own performance assessments. It provides little feedback specific
to their hospital work.

                  The HCFA’s SAQIP is the primary means for assessing State agencies’
          performance. By design, SAQIP calls for State agencies to work with HCFA regional
          offices to develop and implement States’ own quality improvement plans. Since
          implementing SAQIP, HCFA has centrally produced two status reports: one in mid-year
          1997 and one at the year’s end. The HCFA sent copies of both reports to all State
          agencies. These reports, though, provide no State-specific feedback. They neither
          identify States nor offer assessments of performance specific to hospitals or other provider
          types. They include no summaries of activities such as hospital surveys conducted or
          complaints received. They also lack any feedback on specific areas for States to focus
          their improvements, or actions such as follow-up. In fact, the status reports give almost as
          much attention to the SAQIP process and its challenges as they do to the challenges of
          survey and certification activities.

                   As we have seen, the State agencies tend to work closely with the HCFA regional
          office staff in the SAQIP process, offering opportunities for feedback. In fact 32 of 51
          State agencies reported receiving feedback from HCFA regarding their hospital oversight
          activities, and 20 reported making improvements based on that feedback.45 For example,
          several States reported implementing training programs, changing the emphasis of their
          approach to validation surveys, and establishing protocols for handling complaints based
          on HCFA feedback.

                  Nevertheless, the feedback that State agencies receive from HCFA appears to be
          of limited value. For example, when asked about the usefulness of HCFA’s oversight, 29
          of 51 State agencies rated it not or somewhat useful, 15 as moderately useful, and 7 as
          very or extremely useful. While it varies by region, just one HCFA regional office
          indicated that it provides narrative assessments of its State agencies’ performance. Others

Hospital Quality: Holding the Reviewers Accountable   17                                 OEI-01-97-00053
          indicated that feedback to the State agencies tends to be narrow and focused on a specific
          hospital rather than broad and relevant to the range of responsibilities States hold with
          hospitals. For example, HCFA’s feedback on a States’ performance is more akin to
          technical assistance in documenting a hospital’s condition than assistance in prioritizing or
          managing their resources devoted to hospital activities.

Policy and Procedural Guidance: The HCFA gives State agencies considerable
guidance, often on a case-by-case basis involving specific hospitals.

                  The bulk of State agencies’ hospital work is related to investigating complaints,
          adverse events, and conducting validation surveys.46 The HCFA works closely with the
          agencies in carrying out each these activities. When it comes to hospital complaints, for
          example, the agencies’ workload extends to accredited as well nonaccredited hospitals,
          and HCFA regional offices tend to be closely involved in determining not only which get
          investigated, but also to what extent. This is particularly true when the complaint relates
          to an accredited hospital. In those cases, the HCFA reviews the complaint in light of the
          Medicare Conditions of Participation and determines whether the State needs to
          investigate. If an investigation ensues, the HCFA staff oversee the process step-by-step:
          they review the survey findings, summary of deficiencies, and any follow-up. In some
          cases, especially high-profile complaints, the HCFA may send one if its own surveyors to
          accompany the State agency. Indeed, in one State with a highly publicized series of
          hospital deaths, HCFA was so concerned about the State agency’s ability to handle the
          case that it stepped in with its own surveyors to respond.

                   The HCFA regional offices also provide considerable guidance on routine
          certification surveys. As with complaint surveys, the HCFA staff will review the survey
          documentation. Indeed, if the State agency finds a hospital out of compliance with a
          Medicare condition of participation, then HCFA is directly involved in the follow-up, by
          issuing termination notices, for example. The HCFA also provided feedback for those 15-
          20 monitoring surveys HCFA conducted over the past few years, usually by means of a
          formal debriefing with the State surveyors.


The HCFA makes limited use of public disclosure as a means
of holding hospitals or State agencies accountable.
Performance of Hospitals: The HCFA discloses results of its hospital
certification and complaint surveys upon request.

                  The HCFA will disclose most of the survey documents, except those related to
          peer review that are considered confidential. Thus, upon request, HCFA will disclose the
          hospital’s statement of deficiencies, which spells out, condition by condition, the problems


Hospital Quality: Holding the Reviewers Accountable   18                                  OEI-01-97-00053
          identified during the survey and the hospital’s plan for correction. It only lists those areas
          where the surveyors identified problems, and excludes any comparative or trend
          information. The HCFA will also disclose data from its database that records the findings
          and trends of hospital surveys.47 Neither the statement of deficiencies nor the data itself is
          available through HCFA’s website. Rather, interested parties must contact HCFA
          directly. By contrast, Federal law mandates that nursing homes post their statements of
          deficiencies in a manner readily accessible to residents and their families.48 In addition,
          HCFA’s website allows visitors to view the results of nursing home surveys, including the
          scope and severity of any deficiencies.49

                  The survey and certification agencies in some States have gone further than HCFA
          in disclosing hospital-specific information, based on their own States’ authority rather than
          HCFA’s. For example, New Jersey maintains a website that displays resolved hospital
          violations and New York collects and reports hospital- and physician-specific performance
          data on cardiac surgery.

Performance of State Agencies: The HCFA discloses little on the performance of
State agencies.

                  Unlike the mandate for the Report to Congress on the Joint Commission’s
          performance, no such mandate exists for HCFA to report on how well State agencies are
          performing. Nevertheless, HCFA has some, albeit limited, information on States’
          performance. As we have seen, it is has mid-year and year-end SAQIP reports plus
          databases reflecting the State agencies’ survey work. As noted above, HCFA will release
          the data, but it would take considerable knowledge and work to array the data to facilitate
          State-by-State comparisons or in some way measure State agency performance.
          According to HCFA officials with whom we spoke, although HCFA does not distribute
          the SAQIP reports beyond the States themselves, it will release them upon request. Of
          course, the SAQIP reports lack any State-specific assessment of performance.




Hospital Quality: Holding the Reviewers Accountable   19                                   OEI-01-97-00053
                                          CONCLUSION

                  The clear and disturbing conclusion of this report is that both the Joint
          Commission and State Agencies are only minimally accountable to HCFA for their
          performance in reviewing hospitals. While we recognize that these entities are also
          accountable to others and that they must have considerable flexibility to function
          effectively, we maintain that it is vitally important for HCFA to ensure that they
          adequately fulfill their responsibilities to protect Medicare beneficiaries. How, then, can
          HCFA hold these entities accountable while minimizing burdensome oversight? How can
          it recognize their inherent strengths and limitations, and tailor performance measurement
          accordingly? We address these and other related questions in our summary report, A Call
          for Greater Accountability. That report also contains our recommendations, which we
          direct to HCFA.




Hospital Quality: Holding the Reviewers Accountable   20                                 OEI-01-97-00053
                                                                                 APPENDIX A



                                                      Methodology

                    We collected information presented in this report from the following sources:

The HCFA

                   We obtained dates of certification surveys from HCFA’s Online Survey
          Certification and Reporting System (OSCAR). The HCFA authorizes States to update
          and maintain this database with survey information. We extracted survey data pertaining
          to the frequency of certification surveys. We subsequently verified the accuracy of our
          extraction by comparing it to on-line OSCAR system information to ensure the dates we
          used corresponded to routine certification surveys, rather than complaint investigations or
          other types of surveys. We are satisfied that our information is as accurate as HCFA’s
          OSCAR system.

                  Additionally, we selected 4 States (California, Kansas, Minnesota, and Texas) that
          contain over 50 nonaccredited hospitals and represented different regions of the United
          States. We then examined the OSCAR data for those States in greater detail. We verified
          the operational status of the nonaccredited hospitals in those States that had not been
          surveyed in over 5 years using the American Hospital Association’s 1997 Hospital Guide.

                  We also interviewed staff and managers at each HCFA regional office and the
          central office. We reviewed a variety of HCFA documents, including budget call letters,
          reinvention materials, and reports to Congress, among others.

The State Survey and Certification Agencies

                   In August 1997, we mailed a pretested survey to the hospital certification agencies
          in the 50 States and the District of Columbia. The response rate for this survey was 100
          percent. The State survey addressed four areas of hospital quality oversight: private
          accreditation of hospitals, Medicare certification of hospitals, HCFA oversight of State
          certification agencies, and State licensure of hospitals. We interviewed State officials on
          the telephone or in person as well.




Hospital Quality: Holding the Reviewers Accountable        21                             OEI-01-97-00053
                                                                                APPENDIX A



Accrediting Organizations

                   We interviewed officials from both the Joint Commission on Accreditation of
          Healthcare Organizations and the American Osteopathic Association. We also reviewed
          documents from both organizations, including mission statements, accreditation manuals,
          policies, and hospital survey files. We requested and received aggregate data from the
          Joint Commission reflecting its recent hospital survey activity. All Joint Commission data
          are presented as reported by the Joint Commission, unless otherwise noted. For purposes
          of this inquiry, we focused our analysis on the Joint Commission.

Survey Observations

                  Based on schedules of upcoming triennial surveys, we identified nine hospitals in
          which to observe triennial Joint Commission surveys. Of those, we were able to observe
          seven. In two cases, the hospitals declined the Joint Commission’s request that we be
          allowed to observe. The 7 hospitals varied in size from 80 to 775 beds, represented both
          teaching and community hospitals, and were located in different areas of the country (both
          rural and urban). We also observed one random unannounced Joint Commission survey.
          Although we observed different teams of surveyors, the survey agenda, lines of inquiry,
          and tone were consistent across the surveys, which were conducted in accordance with
          Joint Commission policy, based on review of survey manuals and interviews with
          representatives of the Joint Commission. Finally, we observed a certification survey and
          parts of two complaint investigations performed by State surveyors under HCFA’s
          auspices.

Stakeholder Interviews

                 We interviewed representatives of organizations we considered to be stakeholders
          in hospital oversight. These stakeholder organizations included a union, professional
          organizations, hospital associations, and consumer groups.

Other Documents

                  In addition to the documents referenced above, we reviewed statutory and
          regulatory language and a variety of articles from newspapers, journals, magazines, and
          newsletters.




Hospital Quality: Holding the Reviewers Accountable   22                                OEI-01-97-00053
                                                                               APPENDIX B



      HCFA’s Reinvented Oversight of Hospital Accreditation
          Dissatisfaction with Validation

                  Interest in reinventing HCFA’s approach to overseeing accreditation stemmed
          from growing dissatisfaction with the validation survey process. In 1990, 16 years after
          HCFA began to validate the Joint Commission surveys, the General Accounting Office
          (GAO) published a report criticizing HCFA’s validation program. The GAO found the
          comparison of HCFA and Joint Commission survey findings yielded little information
          about the effectiveness of Joint Commission process. Because HCFA measures hospital
          quality using the Medicare Conditions of Participation and the Joint Commission uses its
          own standards, the GAO saw little use in comparing the results of these surveys without a
          crosswalk linking the two sets of measures. In response to this report, HCFA developed a
          crosswalk. The process was labor-intensive and time-consuming, resulting in a document
          over 800 pages long. However, HCFA found using this cumbersome crosswalk produced
          the same results as its old method of comparing survey results and discontinued use of the
          crosswalk.

                  Other concerns about the validation process emerged and gained credence through
          the early 1990s. For example, HCFA came to believe that using hospitals as a proxy to
          evaluate the Joint Commission accreditation process was not only indirect but also could
          be inaccurate if hospital performance changed since an accreditation survey.

          The Reinvention Workgroup

                  In 1993, HCFA organized a workgroup comprising members from HCFA, States,
          the American Hospital Association, American Osteopathic Association, and Joint
          Commission to reinvent the validation. This workgroup identified an alternative or
          reinvented approach to the validation through which HCFA would evaluate the Joint
          Commission’s accreditation process by conducting concurrent, on-site observations of the
          Joint Commission surveys instead of comparing HCFA and Joint Commission survey
          results. This reinvented validation survey would involve HCFA and State surveyors
          participating in Joint Commission surveys as silent observers. The workgroup also
          proposed that HCFA and the Joint Commission should mutually develop both surveyor-
          based and hospital-based performance indicators to be used by HCFA and State observers.
          This on-site assessment was planned to be one part of a larger comprehensive evaluation
          (see box).



Hospital Quality: Holding the Reviewers Accountable   23                               OEI-01-97-00053
                                                                                 APPENDIX B



                                         Planned Components of the Reinvention

                                   Review of Accreditation Organization’s

                                   <         Philosophy and Mission
                                   <         Survey Protocols
                                   <         Surveyor Support
                                   <         On-Site Survey
                                   <         Decision process
                                   <         Deficiency Resolution
                                   <         Timeliness
                                   <         Performance Improvement
                                   <         Intra-Cycle Activity
                                   <         Response to Complaints

                                   Source: HCFA documents, June 1997.



          The Two Completed Reinvention Phases

                   The reinvention workgroup has planned and completed two phases of the
          reinvention, both pertaining to the on-site assessment piece of the validation. As Phase I,
          the workgroup drafted a methodology and developed evaluation criteria for the
          reinvention surveys. The workgroup identified five surveyor based performance
          indicators: survey preparation, survey process, interpersonal, presentation, and teamwork.
          It also agreed upon 11 core hospital functions: assessment, patient preparation, treatment,
          nutrition, medication use, discharge coordination, environmental safety, patient safety,
          infection control, quality improvement, and information management. The HCFA regional
          office and State teams of surveyors attended Joint Commission surveyor training and as
          well as training on how to use the newly developed surveyor and hospital criteria. The
          HCFA piloted a total of 20 reinvention surveys in 4 States: Pennsylvania, Georgia,
          Illinois, and Colorado.




Hospital Quality: Holding the Reviewers Accountable        24                           OEI-01-97-00053
                                                                                    APPENDIX C



                      State Agency Quality Improvement Plan 

                                    Standards

                  The HCFA developed the following standards through a workgroup that included
          State agency representatives:

          Quality Improvement Standards

          Standard 1:	        The State agency documents deficiencies consistent with the Principles of
                              Documentation.

          Standard 2: 	 The Plans of Correction accepted by the State agency reflect appropriate
                        action and time frames to correct cited deficiencies.

          Standard 3:         All surveys are conducted by qualified individuals.

          Standard 4:         The State agency assures consistency in survey performance.

          Standard 5:	        The State agency has an effective program to measure accuracy and
                              improve consistency int he application of long-term care enforcement
                              remedies.

          Standard 6:	        The State agency effectively investigates and processes complaints
                              (including those related to Section 1867) about participating providers and
                              suppliers.

          Standard 7:	        The State agency monitors expenditures and supports charges to Federal
                              programs in accordance with existing regulations, guidelines, policies,
                              approved funding levels and allocation methodologies.

          Quality Control Standards

          Standard 8:	        The State agency ensures that each home health agency (HHA), skilled
                              nursing facility (SNF) nursing facility (NF), and SNF/NF is subject to a
                              standard survey not later than 15 months after the previous survey, and that
                              the statewide average interval between standard surveys does not exceed
                              12 months.



Hospital Quality: Holding the Reviewers Accountable    25                                    OEI-01-97-00053
                                                                                   APPENDIX C



          Standard 9:	        The State agency ensures that it meets all survey coverage percentages
                              negotiated with the regional office for Title XVIII and/or Title XIX
                              providers and suppliers, excluding HHAs, SNFs, NFs, and SNF/NFs.

          Standard 10:	 All surveys, including complaint investigations, are conducted
                        unannounced, or are announced consistent with HCFA instructions.

          Standard 11:	 The State agency budget request, activity plan, and expenditure reports are
                        prepared and submitted in accordance with Federal instructions and
                        accurately reflect the allocation of costs between State and Federal
                        programs.

          Standard 12: The State agency effectively maintains the OSCAR system database.

          Standard 13:	 Annual surveys of intermediate care facilities for the mentally retarded and
                        recertification actions completed before the expiration of the time-limited
                        agreement.




Hospital Quality: Holding the Reviewers Accountable   26                                    OEI-01-97-00053
                                                                           APPENDIX D



                                                      Endnotes

1. Troyen A. Brennan et al, “Incidence of Adverse Events and Negligence in Hospitalized
Patients,” The New England Journal of Medicine 324 (February 7, 1991) 6: 370-376.

2. The 17.7 percent refers to adverse events considered by the authors to be serious. The authors
defined adverse events as “situations in which an inappropriate decision was made when, at the
time, an appropriate alternative could have been chosen” and serious as ranging from “temporary
disability to death.” See Lori B. Andrews et al, “An Alternative Strategy for Studying Adverse
Events in Medical Care,” The Lancet 349 (February 1, 1997)309-313.

        See also Lucian L. Leape, “Error in Medicine,” Journal of the American Medical
Association 272 (December 21, 1994) 23: 1851-1857; David C. Classes et al, “Adverse Drug
Events in Hospitalized Patients,” Journal of the American Medical Association 277 (January
22/29, 1997) 4: 301-306; Mark R. Chassin et al, “The Urgent Need to Improve Health Care
Quality: Institute of Medicine National Roundtable on Health Care Quality,” Journal of the
American Medical Association 280 (September 16, 1998) 11: 1000-1005; David W. Bates et
al,“Effect of Computerized Physician Order Entry and a Team Intervention on Prevention of
Serious Medication Errors,” Journal of the American Medical Association 280 (October 21,
1998) 1311-1316; Robert A. Raschke et al, “A Computer Alert System to prevent Injury from
Adverse Drug Events: Development and Evaluation in a Community Teaching Hospital,” Journal
of the American Medical Association 280 (October 21, 1998) 1317-1320; and David C. Classen,
“Clinical Decision Support Systems to Improve Clinical Practice and Quality of Care,” Journal of
the American Medical Association 280 (October 21, 1998) 1360-1361.

3. One example is a November 1998 New York Times article under the headline: “Death in
Surgery Reveals Troubled Practice and Lax Hospital.” The article described a “botched”
operation on a young woman by a surgeon who was on probation by the State medical board and
who used unauthorized medical equipment brought in to the operating room by a medical supply
salesman. Such incidents can happen even in the best of hospitals, but they underscore the point
that hospitals can be dangerous places and that oversight systems can be lax. See also
“Overdoses Still Weigh heavily at Dana Farber,” The Boston Globe (26 December 1995); “Florida
Doctor Sanctioned in New Amputation,” The Boston Globe (19 July 1995); “Two Surgeons
Surrender Licenses After Mistakenly Removing Kidney,” The Boston Globe (6 June 1996); “How
Can We Save the Next Victim?” New York Times Magazine (15 June 1997); “Another Hospital
Death Probed,” The Boston Globe (26 July 1997); “Patient Dies After Drinking Poison Left on
Nightstand,” San Diego Union-Tribune (6 March 1998); ”Man Arrested for Posing as Doctor for
4 years,” posted at the CNN interactive webpage (16 May 1998); “Deadly Restraint: Patients
Suffer in a System Without Oversight,” The Hartford Courant (13 October 1998).

Hospital Quality: Holding the Reviewers Accountable      27                         OEI-01-97-00053
                                                                               APPENDIX D


4. http://WWW.hcfa.gov/Medicare/Medicare.htm

5. Ibid.

6. Ibid.

7. Ibid.

8. P.L. 89-97.

9. The HCFA published its proposed hospital conditions of participation on December 19, 1997
(62 Fed. Reg. 66,726). On July 2, 1999, it published an interim final rule concerning patients’
rights (64 Fed. Reg. 36,070).

10. Congress also provided that hospitals accredited by the American Osteopathic Association
could be considered in compliance, but only to the extent than the Secretary deemed appropriate.

11. Two companion reports entitled The Role of Accreditation and The Role of Medicare
Certification explore the role of accreditation and Medicare certification in greater detail.

12. Michael S. Hamm, The Fundamentals of Accreditation (Washington, D.C.: American Society
of Association Executives, 1997) 3.

13. Nonaccredited hospitals can go through the Medicare certification process for free.

14. Social Security Act, sec. 1865 (a), 42 U.S.C. 1395bb.

15. Social Security Act, sec. 1864(c), 42 U.S.C. 1395aa.

16. Health Care Financing Administration, Oscar 10 Report, as of May 30, 1998.

17. Validation surveys are onsite reviews of hospitals conducted after a Joint Commission survey.
State agency surveyors conduct the validation surveys based ont he Medicare conditions of
participation.

18. We acknowledge the dual purpose of validation surveys. As originally envisioned, they were
to serve as an assurance that accredited hospitals met the Medicare conditions of participation:
“Our validation program is concerned chiefly with the equivalency of accreditation standards to
Federal requirements, and assuring that Medicare participating facilities deemed by virtue of
accreditation would meet those requirements if surveyed against them.” (58 CFR 61831, see also
Senate Report 92-1230). Over time, the purpose and use of validation surveys evolved to a more

Hospital Quality: Holding the Reviewers Accountable   28                                 OEI-01-97-00053
                                                                             APPENDIX D


encompassing role as a tool of oversight for the Joint Commission. Indeed, these roles overlap
and their distinctions may be blurred. For purposes of this report, we focus on validation surveys
and their potential as a tool of oversight.

19. In 1990, the General Accounting Office criticized HCFA’s approach to validation surveys,
citing specifically the lack of a crosswalk linking the Medicare conditions with the Joint
Commission’s own standards. In response, HCFA created such a crosswalk, but the undertaking
was not only labor-intensive, but also cumbersome: it resulted in an 800-page document. And
when HCFA relied upon that crosswalk for validation surveys in 1989 and 1990, the results were
the same as without a crosswalk (See Health Care Financing Administration, “The Reinvention of
the Hospital Validation Survey,” undated, and U.S. General Accounting Office, Health Care:
Criteria Used to Evaluate Hospital Accreditation Process Needs Reevaluation, GAO/HRD-90-
89, 11 June 1990).

20. See our companion report entitled The Role of Accreditation for a discussion of the Joint
Commission’s standards.

21. The HCFA’s instructions to State agencies also allow for validation surveys to occur within
60 days of HCFA’s notice to the State agency.

22. While we acknowledge our estimate is a rough one, we base it the conservative assumption
that 2-3 surveyors would travel to a hospital for 2-3 days. While highly variable, we estimated the
costs of surveyor salary and travel would be $2,000 to $4,000 each. And considering about 150
surveys per year, we believe the estimate of about $2 million is reasonable.

23. Health Care Financing Administration, “The Reinvention of the Hospital Validation Survey,”
undated.

24. In his book, The Fundamentals of Accreditation, Michael Hamm identifies some generic
criteria for evaluating accreditation bodies, and among the criteria is the organizations’
performance record. (Michael S. Hamm, The Fundamentals of Accreditation, Washington, DC:
American Society of Association Executives, 1997, 10-11).

25. The Joint Commission currently has HCFA officials serving on its Hospital Professional and
Technical Advisory Committee and its Council on Performance Measurement.

26. Social Security Act, sec. 1875(b), 42 U.S.C. 1395ll.

27. Health Care Financing Administration, Medicare Annual Report to Congress: Fiscal Year
1992.


Hospital Quality: Holding the Reviewers Accountable   29                              OEI-01-97-00053
                                                                           APPENDIX D


28. 62 Fed. Reg. 66726, December 19, 1997.

29. The Joint Commission’s board has 28 members, including 6 public members and an at-large
nursing representative. Most members are appointed by organizations such as the American
College of Physicians, the American College of Surgeons, the American Dental Association, the
American Hospital Association, and the American Medical Association.

30. Joint Commission on Accreditation of Healthcare Organizations, “Professional and Technical
Advisory Committee (PTAC) Rules and Procedures,” January 16, 1993.

31. In November 1996, the Joint Commission waived the $30 report fee.

32. The 45 performance areas, divided into 15 categories, are:

Patient Rights and Organization Ethics: Patient Rights, Organization Ethics

Assessment of Patients: Initial Assessment Procedures, Pathology and Clinical Laboratory

Services, Reassessment Procedures, Processes for patient Care Decision, Relevant Policies, Needs

Assessment for Specific Patient Populations

Care of Patients: Planning and Providing Care, Anesthesia Care, Medication Use, Nutrition

Care, Operative Procedures, Rehabilitation Care, Special Treatment Procedures

Education: Patient and Family Education

Continuum of Care: Continuity of Care

Improving Organizational Performance: Improvement Planning, Design of New Services,

Measurement of Processes and Outcomes, Assessment of Data, Improvement of Performance

Leadership: Strategic Planning, Departmental Leadership. Integrating and Coordinating

Services, Leader’s Role in Improving Performance

Management of the Environment of Care: Design of the Environment, Implementation of the

Safety Plans, Monitoring of the Safety Plans, Social Environment

Management of Human Resources: Human resources Planning; Orienting, Training, and

Education of Staff; Assessing Staff Competence; Managing Staff Requests

Management of Information: Information Management Planning, Availability of Patient-

Specific Information, Data Collection and Analysis, Literature to Support Decision-Making, Use

of Comparative Information

Infection Control: Infection Control

Governance: Governance

Medical Staff: Organization, Bylaws, Rules, and Regulations; Credentialing

Nursing: Nursing

Management: Management




Hospital Quality: Holding the Reviewers Accountable   30                            OEI-01-97-00053
                                                                                APPENDIX D


33. The HCFA staff we contacted, particularly in the regional offices, were largely unaware of
these reports and their availability.

34. For further discussion of this policy, see our companion report, The Role of Accreditation.

35. For examples, see Dennis S. O’Leary, “On Becoming Ten,” Joint Commission Perspectives
16 (May/June 1996)3: 2-3; John Morrissey, “JCAHO Outlines Action to Improve Performance,”
Modern Healthcare, January 30, 1995.

36. As we noted in our companion report, The Role of Medicare Certification, nursing homes,
intermediate care facilities for the mentally retarded, and home health agencies all precede
nonaccredited hospitals in survey priority.

37. HCFA, “The State Agency Quality Improvement Program,” May 1996.

38. The Emergency Medical Treatment and Labor Act (42 U.S.C. 1395dd) prohibits hospitals
from refusing emergency patients or women in labor medical screening and/or treatment. If a
hospital willfully or negligently fails to meet the requirements of the act, it can be fined or its
participation in Medicare can be suspended or terminated.

39. The HCFA also has its On-Line Survey and Certification data system (referred to as OSCAR)
for insights into the extent of hospital surveys conducted by the States.

40. Health Care Financing Administration, “State Agency Quality Improvement Program End-of-
Year Implementation Status - Fiscal Year 1997,” May 15, 1997.

41. Ibid.

42. The HCFA tracks survey results through its OSCAR database, but it does not track
termination notices, which can be 23-day or 90-day notices based on the severity of the survey
findings.

43. Referred to as the 1864 Agreement, this document spells out HCFA’s delegation of authority
to the States and the functions States must carry out.

44. See the companion report, The Role of Medicare Certification, for more detail on the budget
priorities.

45. Based on the Office of Inspector General mail survey in September 1997. The survey defined
hospital activities to include Medicare certification surveys for nonaccredited hospitals, responses
to complaints, and validation surveys of accredited hospitals.

Hospital Quality: Holding the Reviewers Accountable   31                                 OEI-01-97-00053
                                                                          APPENDIX D


46. See the companion report, The Role of Medicare Certification, for more detail on State
agencies’ workloads.

47. Referred to as the On-line Survey and Certification Reporting System. The HCFA may
charge a small fee for processing this data.

48. Social Security Act, sec. 1864 (42 U.S.C. 1395aa).

49. The HCFA calls this “Nursing Home Compare” and it is available at
http://www.medicare.gov.




Hospital Quality: Holding the Reviewers Accountable   32                           OEI-01-97-00053
